No. 21-351
IN THE

Supreme Court of the United States
COURTNEY WILD,
Petitioner,
v.
UNITED STATES DISTRICT COURT FOR THE
SOUTHERN DISTRICT OF FLORIDA,
Respondent.
ON PETITION FOR A WRIT OF CERTIORARI TO THE
UNITED STATES COURT OF APPEALS
FOR THE DISTRICT OF COLUMBIA CIRCUIT

CERTIFICATE OF SERVICE
I, Felicia H. Ellsworth, a member of the bar of this Court, hereby certify that, on
this 4th day of October, 2021, all parties required to be served have been served copies
of the Brief for ECPAT-USA as Amicus Curiae in Support of Petitioner in this matter
by overnight courier to the addresses below.
Counsel of Record for Petitioner
PAUL G. CASSELL
S.J. QUINNEY COLLEGE OF LAW AT THE
UNIVERSITY OF UTAH
383 S. University St.
Salt Lake City, UT 84112
(801) 585-5202
cassellp@law.utah.edu

Counsel of Record for Respondent
BRIAN H. FLETCHER
ACTING SOLICITOR GENERAL
UNITED STATES DEPARTMENT OF JUSTICE
OFFICE OF THE SOLICITOR GENERAL
950 Pennsylvania Avenue, NW
Washington, DC 20530
(202) 514-2203
SupremeCtBriefs@usdoj.gov

FELICIA H. ELLSWORTH
Counsel of Record
WILMER CUTLER PICKERING
HALE AND DORR LLP
60 State Street
Boston, MA 02109
(617) 526-6000
felicia.ellsworth@wilmerhale.com

